NO.
IN THE SUPREME COURT OF THE UNITED STATES

JOVANI JACOBO,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent

PROOF OF SERVICE
In accordance with Supreme Court Rule 29.5, Richard H. McWilliams, a member
of the bar of this Court, hereby certifies that on the 10th day of September, 2021, the
Petition for Writ of Certiorari and Proof of Service in the referenced case was properly
addressed and delivered to Federal Express for overnight delivery to the Clerk of the
Supreme Court of the United States, with additional copies deposited in a United States
Postal Service mailbox located in Omaha, Nebraska, with first class postage prepaid to:
Brian H. Fletcher
Acting U. S. Solicitor General
Room 5614, Department of Justice
950 Pennsylvania Avenue N.W.
Washington, DC 20530
Jan W. Sharp
Acting United States Attorney
1620 Dodge Street
Suite 1400
Omaha, NE 68102-1506

Daniel D. Packard
Assistant United States Attorney
1620 Dodge Street
Suite 1400
Omaha, NE 68102-1506

DATED at Omaha, Nebraska, this 10th day of September, 2021.
Jovani Jacobo, Petitioner,

By
RICHARD H. MCWILLIAMS
Assistant Federal Public Defender
Suite 300N
222 South 15th Street
Omaha NE 68102

(402) 221-7896
fax: (402) 221-7884
e-mail: rich_mcwilliams@fd.org

2

